                                                  NATIONAL
                                                   OFFICE OFSCIENCE
                                                            INSPECTOR
                                                                    FOUNDATION
                                                                      GENERAL
   q
  z                                                  OFFICE OF INVESTIGATIONS
    4
                                              CLOSEOUT MEMORANDUM
!@20
        ON   , a+0
 Case Number: A09090073
                                                                                 I         Page 1 of 1



          This case was opened after our office received a referral from an NSF Program Officer regarding
          a collaborator's name being listed on an NSF proposal1 without the collaborator's permission.
          We contacted the collaborator and determined that no misconduct occurred, as the collaborator
          rescinded his offer to be listed on the proposal too late for his name to be removed.

          The collaborator also alleged that the proposal contained information from an old proposal he
          previously submitted. However, the collaborator declined to provide any specific information
          therefore our office could not pursue the matter any further.

          Accordingly, this case is closed.




 NSF OIG Form 2 (1 1/02)
